CITY OF ALBUQ!JERQ!JE

September 10, 2021
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543

RE:

Marcy Britton v. Tim Keller, Mayor of the City of Albuquerque, New Mexico,
et al.
No. 21-217
Motion for Extension to File Response to Petition for a Writ of Certiorari

Dear Mr. Harris:

PO Box 1293

Albuquerque

NM 87 103

www.cabq.gov

Pursuant to Supreme Court Rule 30.4, Respondent Tim Keller, Mayor of the City of
Albuquerque, New Mexico, et al., moves for an extension oftime for filing its brief in
opposition to the Petition for Writ of Certiorari in Marcy Britton v. Tim Keller, Mayor
of the City ofAlbuquerque, New Mexico, et al. , No. 21-217, docketed in this Court on
August 16, 2021. Respondent's opposition brief is currently due on September 15,
2021. A 30-day extension, up to and including October 15, 2021, is requested to afford
Respondent sufficient time to fully respond to Petitioner' s arguments in part because
previous counsel for Respondent no longer works for the City of Albuquerque.
Respondent does not seek this request for extension for purposes of delay, but rather,
to provide a proper and complete response to Petitioner' s Petition for Writ of
Certiorari. Petitioner' s counsel does not oppose the instant request.
For the foregoing reasons, Respondent respectfully requests a 30-day extension of
time, up to and including October 15, 2021 , within which to file its brief in opposition
to Petitioner' s Petition for Writ of Certiorari.
Respectfully,
Isl Kevin Morrow
Kevin Morrow
Assistant City Attorney
P.O. Box 2248
Albuquerque, NM 87103
Telephone: (505) 768-4500

Albuquerque - Making History 1706-2006

CITY OF ALBUQJJERQJJE

Counsel of Record
Copy served by email this 10th day of September 2021, on the following:
A. Blair Dunn
WESTERN AGRJCUL TURE, RESOURCE
AND BUSINESS ADVOCATES , LLP
400 Gold Ave. SW, Ste. 100
Albuquerque, NM 87102
Telephone: (505) 760-5060

Attorney for Petitioner

PO Box 1293

Albuquerque

NM 871 03

www.cabq.gov

Albuquerque - Making History 1706-2 006

